                            NATIONAL S C I E ~ C EFOUNDATION
                                 4201 W I L S O ~BOULEVARD
                                ARLINGTON. VIRGINIA 22230




      OFFICE OF
INSPECTOR GENERAL




Memorandum


Date:

From:

Case:

Re:                    Case Close-Out-



Background
                                                1




                                                             The complainant is no longer
                                                                  allegation stated that
funds provided to support

spent after the expiration of the award.    '1
                                            I
Investigation
                                            I
In September of 1996, we requested account summaries for NSF grant
                                                                       t
was found that at least $15,000.00 was spent after the award's expiration date of August
3 1, 1994. E-mails provided to us by the codplainant indicated that over $1 00,000.0~ was
spent in raduate support costs for studentshot working directly on the grant. Also, the
last d u b m i n e d to NSF was sent in ~ebternber1994, while the account summaries
showed that purchases were charged to thisljgrant until January, 1996.
                                           11
Extramural would be                                     In March of 1998, o m p l e t e d
its initial review of the                                found no irregularities. However,
they had not yet
                                             It

On August 24, 1999, we received a surnmaq! report and source documentation from the
      internal audit department. The report stated that no evidence of
NSF funds had been discovered. The plan
funds was never implemented, and                        after the grant expiration date were
either charged appropriately to the                               account.
                                             I/
Findinas

No evidence of improper use of NSF funds &as found by t h e m u d i t department. This
case is closed.                           I
